United States Department of Agriculture
Office of Inspector General




FSIS E. coli Testing of Boxed Beef




                                          Audit Report 24601-0003-31
                                          March 2013
                                                             Review of the
                                                   FSIS E. coli Testing of Boxed Beef

                                                      Audit Report 24601-0003-31

What Were OIG’s
Objectives
Our objectives were to
examine whether FSIS was
sampling boxed beef products,
as required by agency
procedures, and requesting          OIG audited FSIS to determine how
correct samples, and whether
the industry’s trace back           effectively the agency was testing boxed
documentation is adequate and       beef items that downstream processors
used effectively to determine       used for ground beef production.
the source of E. coli
contamination.
                                    What OIG Found
What OIG Reviewed
We conducted fieldwork at 11        The Office of Inspector General (OIG) found that the Food Safety
processing facilities in 5 States   Inspection Service (FSIS) needs to re-evaluate its E. coli testing
to gain an understanding of the     methodology, as it relates to the downstream processing of boxed beef
testing of incoming boxed           products. FSIS tests product designated as ground beef or likely to
beef, bench trim, and final         become ground beef, but they do not sample all boxed beef product.
ground beef products. We            Some downstream processors grind such boxes of unsampled cuts of
analyzed PHIS profile data          beef without sampling it for E. coli prior to grinding. Similarly,
from 1,750 establishments and       “retail exempt establishments”—grocery stores, butcher shops, etc.—
selected 22 for additional          potentially grind their own ground beef; but unlike Federally
review.                             inspected plants, FSIS does not sample and test bench trim at these
                                    establishments for E. coli. FSIS does have a program for periodically
What OIG Recommends                 testing the final ground beef products at downstream processors and
                                    retail exempt establishments before it enters commerce. Also, FSIS is
We recommended that FSIS            not testing tenderized meat products for E. coli despite several recent
take additional steps to ensure     recalls.
that beef to be ground
throughout the production           FSIS has recently transitioned to their new Public Health Information
process—from Federally              System (PHIS), which relies, in part; on correct profile information to
inspected slaughter                 accomplish such tasks as sending inspectors E. coli sampling requests.
establishments to local grocery     However, we found some establishments had incorrect profile
stores—be subject to FSIS           information, resulting in incorrect requests for sampling. This profile
sampling and testing for E.         error caused FSIS not to sample one establishment’s “other ground
coli. The agency agreed with        beef components” for over 4 years. However, FSIS did sample the
all 12 recommendations and          ground product before it left the plant.
we accepted management
decision.                           Lastly, not all plants we reviewed had adequate records for tracing
                                    source material back to the originating slaughter establishment. Such
                                    information is crucial during a recall.
                            United States Department of Agriculture
                                   Office of Inspector General
                                     Washington, D.C. 20250


DATE:          March 22, 2013

AUDIT
NUMBER:        24061-0003-31

TO:            Alfred V. Almanza
               Administrator
               Food Safety and Inspection Service

ATTN:          William C. Smith
               Assistant Administrator
               Office of Program Evaluation, Enforcement and Review

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       FSIS E.coli Testing of Boxed Beef


This report presents the results of the subject audit. Your written response, dated
March 12, 2013, to the official draft report is included, in its entirety, at the end of this report.
Your response and the Office of Inspector General’s position are incorportated into the relevant
sections of the report. Based on your written response, we are accepting your management
decisions for all audit recommendations in the report, and no further response to this office is
necessary.

Please follow your internal agency procedures in forwarding final action correspondence to the
Office of the Chief Financial Officer. In accordance with Departmental Regulation 1720-1, final
action needs to be taken within 1 year of each management decision to prevent being listed in the
Department’s annual Agency Financial Report.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.
Table of Contents

Background and Objectives ....................................................................................1
Section 1: Boxed Beef Related Concerns ..............................................................5
   Finding 1: FSIS Needs to Ensure that All Components of Ground Beef are
   Included in the Agency’s E. coli Testing Program ............................................5
         Recommendation 1 ........................................................................................8
         Recommendation 2 ........................................................................................9
   Finding 2: FSIS Needs to Improve How It Oversees the Grinding of Bench
   Trim at Retail Exempt Establishments ............................................................10
         Recommendation 3 ......................................................................................12
         Recommendation 4 ......................................................................................13
   Finding 3: FSIS Does Not Sample Tenderized Meat Products for E. coli
   Testing..................................................................................................................14
         Recommendation 5 ......................................................................................15
         Recommendation 6 ......................................................................................16
   Finding 4: FSIS Needs to Ensure PHIS Contains Accurate Data, so that
   Establishments are Correctly Sampling Beef for E. coli Testing ..................17
         Recommendation 7 ......................................................................................19
         Recommendation 8 ......................................................................................20
         Recommendation 9 ......................................................................................20
         Recommendation 10 ....................................................................................21
   Finding 5: FSIS Needs to Ensure Processors Maintain Sufficient Records
   for Trace Back and Recall Purposes.................................................................22
         Recommendation 11 ....................................................................................23
         Recommendation 12 ....................................................................................23
Scope and Methodology .........................................................................................25
Abbreviations .........................................................................................................27
Agency’s Response .................................................................................................29
Background and Objectives

Background
As cattle are being slaughtered, the production environment in the slaughter and processing
establishments can expose meat products to bacteria. Although many bacteria strains are
harmless, other strains of bacteria are dangerous. One strain of bacteria, E. coli O157:H7, is
especially harmful and can result in serious illness or even death. According to the Centers for
Disease Control and Prevention, E. coli are a large and diverse group of bacteria. Most strains of
E. coli are harmless, but other strains of E. coli, such as E. coli O157:H7, cause disease by
making Shiga toxin. The symptoms of Shiga toxin poisoning can include severe stomach
cramps, diarrhea, and vomiting. Most people who consume beef contaminated with E. coli
O157:H7 will recover within 5 to 7 days; some infections are very mild, but others can be lethal.
The Centers for Disease Control and Prevention estimate that E. coli O157:H7 causes about
73,000 cases of illness and 61 deaths annually in the U.S. The U.S. Department of Agriculture’s
(USDA) Economic Research Service estimates that the total costs associated with consuming
E. coli-contaminated meat are about $488 million annually.1

Because it is the external surface of meat cuts where bacterial contamination most often occurs,
certain cuts of meat carry more serious risks. “Intact product,” such as steaks and roasts,
provides a lower degree of risk from this pathogen2 because the normal cooking process will
expose the area most likely containing contamination to temperatures that would kill the bacteria.
Non-intact product, such as ground beef and tenderized cuts, pose a higher degree of risk
because the process of grinding and tenderizing relocates potentially contaminated surface tissue
to the interior, where it may not be exposed to temperatures sufficient to eliminate the pathogen.
Additional risk is incurred when processors tenderize beef to break down the connective tissue in
the meat so that the cut is more palatable to consumers.3

In response to the diversity of components used by industry in non-intact products, Food Safety
and Inspection Service (FSIS) has implemented a variety of different E. coli sampling programs
for components of ground beef, which include beef manufacturing trimmings, bench trim,4 and
other components.5 FSIS also has a limited sampling program for the ground beef being sold at

1
  USDA Economic Research Service Data Foodborne Illness Cost Calculator, March 6, 2012.
2
  The American Heritage Dictionary of the English Language defines a “pathogen” as an agent that causes disease,
such as living microorganisms like bacteria.
3
  There are two main methods of tenderizing meat, cubing (or macerating) and needle (or blade) tenderization. The
cube method gives consumers cuts known as “cube steaks” or cuts used for “chicken fried steaks.” However, needle
tenderization is less obvious and can be used on almost any cut of steak or roast. To make tenderized product, the
processor must penetrate the exterior of the cut, possibly relocating E. coli on the exterior to the interior of the cut.
Needle tenderization can cause additional concern, especially when it is used in conjunction with marinade solutions
which would allow the transfer of E. coli to the interior by means of the liquid solution.
4
  Bench trim is the term for the small bits and pieces the processor would remove from the larger cut to make the
steak or roast easy to cook or more appealing for the consumer. FSIS defines bench trim as trim originating from a
source other than the slaughter establishment which includes whole muscles (or boxed beef) that are to be ground at
a downstream processor.
5
  FSIS began testing ground beef for E. coli O157:H7 in 1994. Beginning in 2007, the agency expanded its testing
program to include testing beef trim, and in 2009, FSIS began testing bench trim.

                                                                             AUDIT REPORT 24601-0003-31                1
retail establishments. In 2011, FSIS analyzed 12,422 ground beef samples, 1,267 trim samples,
677 bench trim samples, 1,024 retail samples, and 228 other raw ground beef components.

Ground beef arrives to the consumer through several methods. The large slaughter/processing
establishments produce most of the ground beef consumed in the U.S and most of the source
materials used in these plants are subject to FSIS testing, which OIG reviewed in a previous
audit report.6 However, downstream processors7 also produce their own ground beef products
and sometimes the components they use in their grind are not normally subjected to FSIS
sampling, such as whole primal and sub-primal8 cuts (usually chucks, rounds, or sirloins).

USDA’s FSIS is responsible for protecting consumers by ensuring that beef is safe, wholesome,
and accurately labeled. While slaughter and processing establishments are ultimately responsible
for ensuring that their product is wholesome, FSIS provides assurance to consumers that the beef
meets USDA standards. Plants use a variety of tools to help provide assurance as to the
wholesomeness of their product; for example, the makers or users of boxed beef materials could
apply antimicrobial treatments. Most plants often independently test their product for pathogenic
bacteria and FSIS also conducts periodic testing in order to verify the effectiveness of the
interventions used by the plant. Also, FSIS announced in a Federal Register Notice that when
E. coli positive test results are found in beef trimmings at downstream processors or the
originating slaughter plant, FSIS will collect multiple follow-up samples and conduct verification
activities at the originating slaughter establishment. However, no method of statistical sampling
and testing can guarantee a particular lot of product is entirely free from E. coli.9

While FSIS is responsible for enforcing laws related to the adulteration of ground beef by E. coli,
Federal regulations10 exempt retail establishments from the same level of oversight as Federally
inspected slaughter plants, even when these retail establishments may be conducting the same
production activities as used by their parallel processors (viz., they grind cuts of beef and trim
into ground beef). FSIS estimated there are approximately 64,000 retail exempt facilities.
Facilities that choose to grind their own ground beef generally use source material that bears a
USDA mark of inspection, which means the product was produced at a Federally inspected
facility.11 While retail exempt facilities are not under the direct supervision of FSIS, they must
abide by State or local codes and inspection, and FSIS’ inspection or sampling is occasionally




6
  OIG Report 24601-0001-31: Application of FSIS Sampling Protocol for Testing Beef Trim for E. coli O157:H7
(issued May 2012).
7
  Downstream processors can include Federally and non-Federally inspected establishments ranging from mid-
stream wholesalers to retail outlets such as grocery stores, hotels, and restaurants.
8
  Primals and Sub-primal cuts are muscle groups from the carcass usually consisting of the chucks, rounds, loins,
and ribs.
9
  FSIS intends to implement new traceback procedures at beef manufacturing trimming suppliers that provided
source materials for ground products or bench trim (trim derived from beef at an establishment other than the
originating slaughter establishment) that FSIS finds positive. When FSIS implements these new traceback
procedures, the Agency expects that the data gathered will enable it to better target sampling at slaughter
establishments.
10
   Title 9 of the Code of Federal Regulations, part 303.
11
   In some instances the source product may be derived from State inspected establishments.

2     AUDIT REPORT 24601-0003-31
done on a “for cause” basis.12 FSIS compliance investigators are instructed to collect samples
when retail establishments engage in riskier grinding practices such as grinding boxed beef
product that is not accompanied with negative E. coli test results from the upstream processing
plant.13

As for the sampling programs, FSIS recently began using the Public Health Information System
(PHIS). PHIS is a web-based information management system that FSIS uses to maintain
information on Federally inspected plants.14 Information maintained by this system includes
plant production details. They system is used by FSIS to manage information and schedule tasks
for the in-plant inspection personnel, such as when to collect E. coli samples for the various
sampling programs.

While conducting fieldwork for Audit 24601-0001-31, the audit team became aware of the
potential for downstream processors to grind untested boxed beef products and wanted to
determine if FSIS field personnel were properly considering these products for E. coli sampling.
The large slaughter facilities will place the meat cuts, such as chucks, rounds, or sirloins, into
individually vacuum sealed bags, which are shipped in large boxes often weighing more than
60 pounds apiece. While the slaughter establishment may have intended these boxed beef
products to be used as intact products (thus they were not subject to E. coli testing), downstream
processors might choose to grind the meat. Although FSIS maintains an extensive ground beef
sampling program for these Federally inspected downstream processors, the untested boxed beef
and its trim might not be adequately considered for sampling prior to grinding. Studies have
shown that sampling trim has a potentially higher probability of finding E. coli than sampling
ground beef.15

In the course of this review, OIG focused primarily on FSIS sampling of boxed beef used in
ground product. OIG also determined to review FSIS’ PHIS plant production details as they
related to E. coli sample selection. In addition, while OIG prepared for this review, a retail
establishment’s recall uncovered that the grinding logs to trace the contaminated product to the
source were not maintained. Therefore, we wanted to determine if the same inadequate grinding
logs condition existed, especially at the smaller Federally inspected downstream processors.
Lastly, OIG wanted to know if the upstream slaughter plants were using labels such as “not
intended for grinding” on their boxed beef and how that impacted food safety.




12
   In addition to these routine sampling programs, most microbiology programs have a consequential (for cause)
sampling component when the production process within a regulated establishment is determined to be out of
control.
13
   FSIS Directive 8010.1 Rev. 3, Appendix 1, Instructions for Collecting Surveillance Samples of Raw Ground Beef
at Retail for E. coli O157:H7 Analysis, provides the instructions for when FSIS compliance investigators should
collect samples from retail exempt establishments.
14
   FSIS Directive 5,300.1, Managing the Establishment Profile in the Public Health Information System.
15
   OIG Audit Report 24601-0001-31 – Finding 2.

                                                                        AUDIT REPORT 24601-0003-31             3
Objectives
Our objectives were to examine whether: (1) FSIS is sampling boxed beef products, as required
in agency procedures; (2) FSIS is entering plant profile data correctly into PHIS to ensure the
plant is eligible for trim or bench trim sampling requests; (3) industry’s trace back
documentation is adequate and used effectively to determine the source when E. coli is found;
and (4) industry is identifying or labeling boxed beef product with “not intended for grinding”
and how that impacts food safety.

This report does not reflect any finding(s) related to objective number 4, regarding the labeling
of boxed beef product with “not intended for grinding.” At the end of our prior audit, 24601-
0001-31, we were informed that one plant potentially used these labels on boxed beef materials.
We believed this was an issue to address because it potentially shifted the prevention of pathogen
contamination responsibilities from the originating slaughter plant to the downstream processor.
Therefore, on this follow up audit, we included it as part of our objectives. However, we did not
find any use of “not intended for grinding” labels at the downstream processing or the upstream
slaughter establishments we visited. According to FSIS, it does not approve labels with this
statement. FSIS officials noted that the agency may approve instructional or disclaimer
statements, but a “not intended for grinding” statement does not qualify as either an instructional
or disclaimer statement. Therefore, we are not reporting on this portion of the objective.




4    AUDIT REPORT 24601-0003-31
Section 1: Boxed Beef Related Concerns

Finding 1: FSIS Needs to Ensure that All Components of Ground Beef are
Included in the Agency’s E. coli Testing Program
Although FSIS has a comprehensive system for testing the various cuts of beef that consumers
may buy as ground beef, it needs to reevaluate its E. coli testing methodology as it relates to the
downstream processing of boxed beef products. For instance, at large processing plants we
visited, FSIS and the plants tested product that was designated as ground beef or trim destined to
become ground beef, but they generally did not test boxed beef product, even though some
downstream establishments may be grinding that product.16 Establishments downstream receive
such boxed beef product bearing the USDA mark of inspection and may assume that it is
pathogen free and, therefore, safe for grinding; however, the product was seldom considered
eligible for testing for E. coli. When we asked why this type of product was generally excluded
from testing, FSIS officials explained that they intended for these boxed beef products to be
tested under their procedures for testing bench trim,17 but that they did not adequately convey
their intentions to FSIS inspection personnel in the plants. As a result, some portion of the
product used to produce the ground beef consumers purchase is not included in FSIS sampling,
and the public has less assurance that ground beef is not contaminated. Several recalls of these
types of components used in ground beef have occurred. In 2008, FSIS recalled 1.3 million
pounds of boxed beef product that had contributed to making 35 people ill. In 2009, a recall of
380,000 pounds became necessary when 24 illnesses in 10 States were linked to bench trim
(boxed beef) that was not eligible for FSIS’ E. coli testing.

FSIS is responsible for performing verification sampling of ground beef components to ensure a
plant’s Hazard Analysis and Critical Control Points (HACCP) plan is functioning properly.18, 19
At upstream slaughter plants, FSIS tests ground beef and trim destined to become ground beef,
but the agency and industry have determined that boxed beef product intended for steaks and



16
   For our purposes, the term “boxed beef” product means boxed whole beef cuts of primals or subprimals that are
packaged at the slaughter plant into large boxes, which downstream processors might further divide into individual
steaks, roasts, or other cuts, or grind into hamburger. OIG acknowledges that other cuts of trim or smaller muscle
cuts, which are exposed to plant or FSIS testing, can also be shipped in boxes and sometimes referred to as boxed
beef as well; however, this audit did not review this type of source material.
17
   As per FSIS Directive 10,010.1 Rev. 3, Chapter II, Section IV., B. Sample Collection Procedures For Beef
Manufacturing Trimmings: Bench Trim may be defined as trimmings from an animal not slaughtered on the
premises and may also include secondary trimming of primals, sub-primals or any other cuts designated for
non-intact use, derived from cattle not slaughtered on site at the establishment. These trimmings are to be sampled
under the MT55 sampling code.
18
   9 CFR §417.8: Agency Verification: “FSIS will verify the adequacy of the HACCP plan(s) by determining that
each HACCP plan meets the requirements of this part and all other applicable regulations.”
19
   FSIS Directive 5,000.1 Rev. 3, Chapter II HACCP notes that 9 CFR 417.2 (b) requires that every official [Federal]
establishment must develop and implement a HACCP plan covering each product produced. It is then FSIS’
responsibility to perform verification activities in order to provide a basis for making informed decisions regarding
whether the establishment is in compliance with its HACCP plan. According to this CFR citation, only Federal
“official establishments” are required to have HACCP plans. There are many other non-federal establishments that
handle meat products and there is no requirement that they have HACCP plans.

                                                                          AUDIT REPORT 24601-0003-31               5
roasts does not need to be tested.20 When such product reaches downstream processing
establishments, those plants sometimes choose to grind it to make products like steak burgers or
ground round. FSIS officials stated that they intend for whole boxed beef cuts that are to be
ground at this stage to be sampled under the agency’s bench trim testing program, and even
though boxed beef itself may not have been considered eligible for testing by FSIS at the
slaughter plant, the ground product at the grinder should be subject to FSIS testing. 21 FSIS
officials also noted that downstream grinders should be considering and addressing the potential
for pathogens in their source product when they perform their hazard analysis.

We found, however, that FSIS’ directives to its in-plant inspection personnel on whether to test
boxed beef product intended for grinding at downstream processors were unclear. Although one
section of FSIS’ directive states that boxed beef should be sampled as bench trim, the section of
the directive related to sampling bench trim does not mention that boxed beef should be eligible
for sampling.22

We visited five downstream processing plants where the plant was grinding boxed beef product
and found that FSIS inspectors were not testing the boxed beef product intended for grinding for
E. coli at four of the five plants. When we spoke to FSIS inspectors at these four plants they
stated that they did not believe that boxed beef product was eligible for testing prior to being
ground. One inspector noted that FSIS directives were unclear and did not explicitly direct
sampling of boxed beef product. Other inspectors were confused in that they did not believe
they should be sampling the whole cuts of boxed beef, but only the trimmings from the boxed
beef. A supervisor also explained that this product should not be sampled. The supervisor stated
that they would only instruct their staff to sample products that were cut or ground at their
facilities and that if boxed beef came from another FSIS inspected facility, the inspector staff
should not sample the boxed product. We found, however, that the fifth inspector was correctly
sampling boxed beef whole muscle product before it was ground.

The grinding of boxed beef into ground beef in downstream processing plants has caused several
recalls. In 2008, 35 people became ill in Michigan and Ohio. FSIS traced the problem back to a
slaughter plant in Nebraska that had shipped boxed beef products to downstream processing
plants that then ground the beef. This occurred without testing for E. coli. As a result, FSIS and
the plants recalled approximately 1.3 million pounds of beef products. 23 In 2009, 24 people in
10 States were made ill. FSIS determined that the source of the problem was a slaughter
establishment in Colorado that had shipped boxed beef products to downstream processing plants
that then ground the beef, all without testing for E. coli. As a result, FSIS and the plants recalled

20
   FSIS Directive 10,010.1 Rev. 3, Chapter II, Section IV, B. Sample Collection Procedures for Beef Manufacturing
Trimmings, 2: “IPP[inspection program personnel] are not to sample product that the establishment intends for use
in intact product or ready-to-eat products.”
21
   FSIS recently issued High Event Period policies as guidance to industry, which address the higher likelihood that
primals and sub-primals could become contaminated when slaughter plants have an increased amount of E. coli
positive test results.
22
   OIG compared FSIS Directive 10,010.1 Rev. 3, Chapter II, Section IV., B. Sample Collection Procedures For
Beef Manufacturing Trimmings with FSIS Directive 10,010.1 Rev. 3, Chapter II, Section V: Routine Sampling and
Testing of Beef Manufacturing Trimmings Derived From Cattle Not Slaughtered in That Establishment (Bench
Trim) For E. coli O157:H7.
23
   Product recall Nebraska Beef Ltd., Omaha, Nebraska, in 2008.

6     AUDIT REPORT 24601-0003-31
approximately 380,000 pounds of beef products.24 Also, in September 2012, FSIS issued a
public health alert noting that E. coli contaminated whole muscle boxed beef cuts that were
produced in Canada were being recalled because they had been used to produce raw ground beef
in the United States.25

As part of our review, we traced back boxed beef product at two of these downstream processors
to a common upstream slaughter plant. At both of these downstream processors, FSIS was not
sampling product prior to grinding. We visited the upstream slaughter plant and confirmed that
FSIS and the plant were not sampling the boxed beef product prior to it being shipped. We
concluded that this product was being ground without FSIS considering it eligible for E. coli
contamination testing.26

We also noted that FSIS does suggest that downstream processors test incoming beef from
upstream slaughter plants,27 but that 9 of the 11 plants we visited were not following this
guidance. Personnel at the nine plants stated they did not follow this guidance, due to either the
expense involved to do the testing or product freshness issues in waiting for results. The other
two plants that were testing were larger plants that had responded to more rigorous product
quality demands from their customers. Under FSIS’ current bench trim testing program, the
agency does not consider a downstream processor’s own verification testing (or lack of testing)
when determining the frequency of sampling. In OIG’s opinion, if a downstream processor does
not perform incoming product verification testing, its production is at higher risk for E. coli
contamination and should be considered for additional FSIS bench trim sampling.

When we brought these issues to the attention of FSIS officials at the national office, who are
responsible for the design and implementation of FSIS’ E. coli testing procedures, they agreed
that boxed beef product intended for grinding at a downstream processor should be sampled and
tested. They also agreed that the directive could be made clearer to ensure that plant personnel
perform these tests, and stated that such grinding was potentially higher risk.28

FSIS also expressed concern that this report did not take into consideration the many methods of
E. coli sampling the plants and the agency perform. OIG acknowledges that, at the upstream
slaughter plants, ground beef components, such as beef trim and the outgoing ground product,
are subject to plant and FSIS sampling. In addition, final ground beef products are subject to
FSIS sampling at the downstream processors and retail exempt establishments. However, this
report focuses on boxes of primal and sub-primal cuts—such as non-two piece chucks, rounds,
and sirloins—that are normally not tested at the originating slaughter plant and are sometimes

24
   Product recall Swift Beef Company (establishment number 969), Greeley, Colorado, case 034-2009.
25
   Public health alert XL Foods Inc., Alberta, Canada, in 2012.
26
   Although the boxed beef was not sampled and tested for E. coli prior to grinding, the finished ground beef would
have been eligible for testing under FSIS’ MT43 (Routine Testing of Raw Ground Beef) program.
27
   FSIS Draft for Stakeholder Comment, August 12, 2008: Compliance Guideline for Sampling Beef Trimmings for
Escherichia coli O157:H7, Chapter II: General Guidance for Verification Testing of E. coli O157:H7: “FSIS
recommends that establishments conduct verification testing directly for E. coli O157:H7.”
28
   Specifically, agency officials believe that bench trim from the fabrication of whole muscle cuts at downsteam
processors and trim from slaughter establishments is being sampled by their in-plant inspectors but they agreed that
the FSIS needs “…to make sure that larger cuts that may not have been sampled at the slaughter establishment are
being sampled if they are being thrown into the grinder.”

                                                                          AUDIT REPORT 24601-0003-31               7
used for ground beef production at the downstream processing plants. Also, consumers should
be aware that grinding of untested boxed beef occurs outside the scope and jurisdiction of FSIS,
such as at restaurants, institutions, and a growing trend of grinding whole muscle cuts at home.
Therefore, it is prudent for the consumer to follow FSIS food safety guidelines for cooking
ground beef products.29

Finally, we noted that PHIS is capturing information on the final products that plants are selling,
but does not completely capture information on the types of source material downstream
processors are using to make those final products. As a result, product to be ground may not be
entered in the appropriate trim sampling program by FSIS in-plant inspectors. In order to make
PHIS more useful in helping inspectors conduct required tests of bench trim, we maintain that
PHIS should be improved to capture such source information. Agency officials stated that there
is no reliable way for FSIS to determine what product is destined to be ground, which is purely
the establishments’ business decision; therefore, PHIS could not accurately capture this
information. OIG acknowledges PHIS may or may not be the proper system to capture this
information, but we believe that FSIS needs this information to identify the proper universe of
establishments when developing the agency’s sample selection algorithm that determines the
bench trim sample requests.

Overall, OIG concluded that FSIS needs to take additional steps to ensure that boxed beef
product being ground is considered eligible for FSIS E. coli testing. The agency needs to
communicate this requirement to its in-plant personnel and also include important information in
PHIS, so that agency officials can identify where such testing should take place.

Recommendation 1
Reevaluate procedures for sampling boxed beef product as bench trim and issue clarification to
FSIS’ inspectors on the agency’s requirements. Also, consider the risk associated with a
downstream processor’s own verification testing (or lack of testing) when evaluating the
frequency of sampling.

Agency Response
FSIS agrees that boxed beef product designated as intended for grinding at a “downstream”
processor should be eligible for sampling and testing as “bench trim” at the grinding
establishment by FSIS. FSIS has issued guidance to industry recommending that establishments
conduct such verification activities to demonstrate the on-going effectiveness of their food safety
systems, including prerequisite programs. The agency will clarify its instructions to agency
inspection personnel in FSIS Directive 10,010.1, Verification Activities for Escherichia coli
O157:H7 in Raw Beef Products, and in related AskFSIS questions that FSIS policy is that
“bench trim” derived from boxed beef sub-primals at “downstream” grinders is subject to testing
under the MT55 testing program. FSIS will clarify that whenever a whole primal or sub-primal
cut is received at a non-slaughter establishment and is intended for grinding (not just the

29
  To limit a consumers exposure to possible E. coli contamination, USDA recommends cooking ground beef to an
internal temperature of 160 degrees Fahrenheit as measured by a food thermometer.

8     AUDIT REPORT 24601-0003-31
trimmings from these cuts), the whole primal or sub-primal cut is considered to be bench trim
and subject to being sampled.

Using the results of the analysis outlined under Recommendation 3, FSIS will consider adjusting
the frequency of testing when “downstream” grinders maintain their own testing programs.

The estimated completion date for all parts of this response is March 2014.

OIG Position
We accept management decision for this recommendation.

Recommendation 2
Prepare a plan with reasonable timeframes to evaluate whether PHIS or another system should be
modified or developed to capture additional information regarding the type of incoming product
(i.e., boxes of whole muscles beef cuts) that is being ground by downstream processing
establishments, in order to improve FSIS’ ability to assign the appropriate E. coli sampling
program requests, and implement any necessary actions based on the evaluation.

Agency Response
FSIS will perform a survey using a new functionality in PHIS to determine which downstream
(non-slaughter) establishments receive whole primal or sub-primal cuts and then grind them.
FSIS will then update these establishments’ profiles in PHIS to reflect this fact. This information
will help identify those establishments where whole primal or sub-primal cuts are eligible for
sampling and testing under the MT55 testing program. A mechanism to capture this information
in PHIS will soon be operational. PHIS will have a survey functionality that will be operational
in June 2013, which will allow inspection program personnel to input answers to survey
questions. FSIS will use the new survey function to collect information on which downstream
establishments grind whole primal or sub-primal cuts, and then PHIS establishment profiles will
be updated accordingly.

The estimated completion date for all parts of this response is December 2013.

OIG Position
We accept management decision for this recommendation.




                                                               AUDIT REPORT 24601-0003-31        9
Finding 2: FSIS Needs to Improve How It Oversees the Grinding of Bench
Trim at Retail Exempt Establishments
Although FSIS is responsible for ensuring that ground beef is free from E. coli contamination, a
significant amount of bench trim is ground in the nation’s approximately 64,000 “retail exempt
establishments”—grocery stores, wholesale clubs, and butcher shops—where FSIS may
periodically visit, but the agency does not sample and test bench trim for E. coli like it does in
Federally inspected plants.30 These establishments are directly regulated by State and local
health authorities and since these retail exempt establishments do not have Federally required
HACCP plans, FSIS is not required to perform the E. coli sampling that it would ordinarily
perform for monitoring and verifying HACCP plans at a larger Federally inspected plant.31
Agency officials agreed that they could look more closely at the food safety risk posed by
grinding at retail exempt establishments.32 Consumers who purchase ground beef that was
ground in retail exempt establishments are not receiving the same safeguards from E. coli
pathogen testing as those who purchase ground product prepared in a Federally inspected
establishment. Recent recalls from these types of establishments have been related to over a
dozen illnesses.

FSIS is responsible for enforcing the laws intended to ensure that ground beef is not
contaminated with E. coli, but the requirements of the Federal Meat Inspection Act (FMIA)33 and
the regulations for inspection of the preparation of products do not apply to operations
traditionally conducted at retail stores and restaurants, when sold in normal retail quantities. 34
Specifically, bench trim that is being ground into hamburger at retail exempt establishments is
not included in FSIS’ E. coli trim sampling program. To qualify as retail exempt, these facilities
must use source material that bears the USDA or State mark of inspection. However, FSIS has
acknowledged that retailers sometimes engage in high risk practices, such as grinding boxed beef
along with store displayed primal and sub-primal cuts that are at the end of their shelf-lives,
thereby treating boxed beef and exposed beef without distinction.

The vast preponderance of FSIS’ testing resources are being directed at approximately
1,700 Federally inspected plants. At present, FSIS compliance investigators visit retail exempt
establishments, but they do so infrequently (once a year at best), and they take relatively few
E. coli samples. Investigators are to collect ground beef samples when retail establishments
grind primals, sub-primals, purchased trim, boxed beef, or other components that are not
accompanied by records of negative E. coli O157:H7 test results. Additionally, investigators are
to collect ground beef samples at retailers that fail to keep records sufficient for trace back, or

30
   FMIA gives FSIS the authority to ensure that meat products are wholesome and not adulterated; however, under
FSIS’ current E. coli sampling program, the agency has chosen to utilize its limited sampling resources to sample
only ground beef at retail establishments, and not bench trim.
31
   9 CFR§ 417.8 (g).
32
   FMIA specifically provides for exemptions from federal inspection requirements for some establishments. Within
the context of FMIA, 9 CFR 303.1 (d) (2) further defines the types of meat processing operations that can be
conducted at retail stores and restaurants without direct FSIS oversight. The Act provides for certain exemptions to
Federal inspections, which limits FSIS’ ability to closely regulate and provide oversight for all the food handling
activities that occur in retail exempt establishments.
33
   Federal Meat Inspection Act, Title 21 U.S.C., Chapter 12, Meat Inspection, section 601 et seq.
34
   9 CFR§ 303.1(d),(2),(ii).

10      AUDIT REPORT 24601-0003-31
retailers that grind store-generated bench trim derived from their own operation. However, only
1,024 of 13,446 (7.6 percent) samples of finished ground beef that FSIS took in 2011 were taken
from retail exempt establishments.35 Given that there are about 64,000 retail exempt
establishments, FSIS sampled less than two percent of the retail establishments during 2011. 36
As a result, a substantial quantity of beef is being ground with little chance of FSIS sampling at
the retail level, and in no case at present does FSIS test the bench trim at retail exempt
establishments before it is ground.37

Retail establishments have been involved in recalls resulting from pathogen contamination. For
example, a large grocery store chain in the northeast was forced to recall a large amount of
ground beef, produced from in-store beef grinding, after at least 14 persons became ill.38 During
another recall involving beef ground at retail locations, customers were made ill by E. coli-
tainted ground beef they purchased that was derived from bench trim.39

FSIS officials have tended to limit the types of activities, like sampling, that they perform in
retail establishments because FMIA provides operations that conduct less complex food handling
activities with relief from the requirement of continuous FSIS inspection. Regulations provide
that these exempt food handling activities may include things like slicing, grinding, freezing,
curing, cooking, smoking, wrapping, and rewrapping. Establishments that conduct these “retail”
and similar type meat handling operations are therefore exempt from direct daily FSIS
oversight.40 When we spoke to FSIS officials and presented to them our concerns about the lack
of oversight of bench trim at retail exempt establishments, they agreed that they would look more
closely at the food safety risk posed by grinding at such establishments.

FSIS officials stated that they had actually reduced their classification of the risk posed by such
establishments, based on the findings and recommendations of an outside scientific study. 41 That
scientific study, OIG contends, is based on the assumption that adequate oversight is being
performed by State and local officials at retail exempt establishments. However, those officials
are not looking specifically for E. coli contamination, and they may not visit these establishments
more than once a year. We are concerned that the average consumer is unaware of the difference
between the testing of the ground beef that has come from a Federally inspected plant versus
ground beef that is ground onsite at a local grocery store. The former is subjected to an



35
   Testing of Raw Ground Beef and Raw Ground Beef Component Samples for E. coli O157:H7: Year-to-Date
Totals: Results from Analysis of Raw Ground Beef Samples As of Dec 31, 2011.
36
   The figure of about 64,000 retail establishments was defined by FSIS as “supermarkets” that included chain
stores, smaller chain stores, and individual “mom and pop” stores.
37
   FSIS maintains that sampling raw ground beef products produced in retail establishments targets those beef
products that may present the highest risk to consumers. Therefore, the raw ground beef products are subject to
sampling as outlined in FSIS Directive 8010.1 Rev. 3, Appendix 1, Instructions for Collecting Surveillance Samples
of Raw Ground Beef at Retail for E. coli O157:H7 Analysis.
38
   Product recall Hannaford, Scarborough, Maine, in 2008, for Salmonella Typhimurium.
39
   Product recall Swift Beef Company (establishment number 969), Greeley, Colorado, case 034-2009.
40
   9 CFR§ 303.1(d),(2).
41
   FSIS Annual Sampling Program Plan: Microbiological and Residue Sampling Programs: Fiscal Year 2012 cites a
formal review of FSIS in-commerce activities by the National Academies of Science (NAS), which resulted in the
agency lowering the estimated risk level posed by retail establishments from Tier 2 to Tier 3.

                                                                      AUDIT REPORT 24601-0003-31              11
additional layer of FSIS E. coli testing of trim that has been subject to FSIS E. coli sampling,
while the latter is only subject to final product testing.

FSIS officials noted that they do not believe that bench trim in retail exempt establishments has
statistically more risk than trim or ground products that are being sampled. FSIS also believes
subjecting trim to testing at slaughter establishments is a better use of agency resources.
Nonetheless, OIG maintains that FSIS should reach a determination about the health hazard
posed by grinding beef at retail exempt establishments, which could easily be millions of pounds
a week,42 and determine if it should implement a more proactive and vigorous testing program
for bench trim at these businesses.

Recommendation 3
Initiate an assessment, which provides an estimate of the risk associated with the potential
volume of untested boxed beef and store-generated bench trim derived from the retailers’ own
operations that is being ground in retail exempt establishments. Consider using a survey to
gather the information on exempt retailers’ practices.

Agency Response
FSIS will develop an assessment that will compare the level of STEC O157 contamination in
ground beef produced from boxed beef to the level of STEC O157 in ground beef produced from
trim (i.e. trimmings produced at slaughter/processing establishments). This assessment will use
information from previously published risk assessments to determine the beginning levels of
contamination in the two different types of product.

The levels of contamination in ground product can be extended to predictions of risk per serving
if storage, preparation, consumption, and other factors are assumed to be identical for both
ground beef from boxed beef and ground beef from trim. At this time, there is no evidence to
indicate the ground beef produced from boxed beef is stored, prepared, or consumed differently
than ground beef produced from trim.

Predictions of numbers of human illnesses due to STEC O157 contamination in ground beef
produced from boxed beef cannot be developed at this time. Before such illness estimates can be
developed, information on the volume and distribution of ground beef produced from boxed beef
is needed.

FSIS will also evaluate the likelihood of detecting positive lots of product (boxed beef, bench
trim, or ground beef) under various testing schemes including processor and/or FSIS verification
testing and end product testing. Such an assessment could include an estimate of any predicted
reductions in risk of illness associated with product testing. Again, such an assessment would
first require data regarding retail practices on volume and distribution of ground beef from boxed
beef.

42
  An industry group (Nielsen Perishables Group FreshFacts) estimated in its May 2012 newsletter that retail ground
beef volumes were averaging around 50 million pounds a week.

12      AUDIT REPORT 24601-0003-31
FSIS will gather information on exempt retailers’ practices by means that conform to established
agency protocol for risk assessments which may be subject to peer review.

The estimated completion date for all parts of this response is December 2013.

OIG Position
We accept management decision for this recommendation.

Recommendation 4
If the agency determines that there is a significant amount of risk associated with grinding of
boxed beef and store-generated bench trim in retail establishments, develop a plan with
milestones and reasonable timeframes to implement a testing program to sample and test bench
trimmings that are ground in retail establishments, including reallocating FSIS’ limited testing
resources to include beef trim as well as final product at retail exempt establishments. Seek
public input on the plan, consider any comments provided, and conclude whether or not to
implement a new bench trim sampling program in retail establishments.

Agency Response
If FSIS determines that there is a significant amount of risk associated with grinding of boxed
beef and store-generated bench trim in retail establishments as a result of the assessment
described in response to recommendation 3, FSIS will develop a plan with milestones and
reasonable timeframes to implement a testing program to sample and test bench trimmings that
are ground in retail establishments. In preparing the plan, FSIS will make a determination as to
allocation of testing resources between beef trim and final product at retail exempt
establishments.

The estimated completion date for this response is March 2014.

OIG Position
We accept management decision for this recommendation.




                                                             AUDIT REPORT 24601-0003-31       13
Finding 3: FSIS Does Not Sample Tenderized Meat Products for E. coli
Testing
FSIS does not, at present, test tenderized meat products,43 even though these products present
some additional risk for E. coli contamination.44 When a steak is tenderized through a needling
or needling marinade process, the risk of contamination increases because any E. coli on the
outside of the meat could be pushed into the interior. If the tenderized steak is then not fully
cooked, there is the possibility that a consumer could be made ill by the contaminated meat. We
visited five downstream processors that offered tenderized product for distribution to consumers
or retail establishments and found that FSIS did not sample tenderized product in any of the five
establishments. FSIS officials told us that they do not sample these products because they
consider them to be at a low level of risk for E. coli and did not see the need for testing. Industry
representatives noted that the more obvious tenderized cuts, such as minute steaks or chicken
fried steak patties, often orginate from tougher and less desirable cuts and consumers tend to
thoroughly cook them. However, in other cuts it is not as obvious to the consumer that they have
been tenderized. Additionally, FSIS officials acknowledged that tenderized products that are
also marinated seem to have more problems with pathogen contamination than non-marinated
products. FSIS officials told us that they have developed a proposed rule that is currently under
review, which would require new labeling for mechanically tenderized product, but they do not
plan to begin an E. coli sampling program. OIG maintains that these tenderized cuts do have
some degree of risk. They have been subject to a number of different recalls, including 248,000
pounds of chopped steak product that caused 19 illnesses in 16 States, as well as about 1,000
pounds of tenderized and other product that made 3 students ill.

Typically, primals and sub-primals are not considered at risk for E. coli contamination because
they are intact, and any E. coli on their surface should be destroyed during cooking. Therefore,
no sampling and testing is required on these cuts of meat. However, establishments may produce
primals or sub-primals that are processed into non-intact consumer-ready steak and roast
products (e.g., tenderized steaks). FSIS’ sampling directive requires that FSIS inspectors verify
establishments producing tenderized beef products have evidence that the establishments
considered the potential hazard of E. coli contamination and have addressed the risk in their
intervention processes. If a Federally inspected establishment makes these types of raw
non-intact products, then FSIS is responsible for ensuring that the tenderized products are not
contaminated with E. coli.45

We found, however, that FSIS was not requiring the sampling of tenderized products. We
confirmed this observation at the five plants we visited, and both the FSIS inspectors and plant
management said that testing these types of tenderized products was not required, so they did not
sample from such products.


43
   Tenderized product may include beef that an establishment has injected with solutions; beef that an establishment
has mechanically tenderized by needling, cubing, Frenching, or pounding devices (with or without marinade); and
beef that an establishment has reconstructed into formed entrees.
44
   Although FSIS does not directly test mechanically tenderized products, if the establishment should later use bench
trim derived from tenderized products for ground beef production, that material would be subject to FSIS testing.
45
   FSIS Directive 10,010.1 Rev. 3, Chapter V, B and Directive 5,300.1 Attachment 1.

14      AUDIT REPORT 24601-0003-31
Tenderized meat products have been involved in several recent recalls. One national restaurant
chain became involved in a recall that made 19 people in 16 States ill. FSIS traced the source of
the problem back to a slaughter establishment in Oklahoma that produced tenderized and
marinated steaks from boxed beef.46 In another case in Massachusetts, three middle school
students become ill after eating tenderized beef products. FSIS and the processing plant
responsible responded by recalling about 1,000 pounds of meat.47 In 2012, a slaughter
establishment that ships beef throughout the United States and Canada recalled over 1 million
pounds of primal and sub-primal cuts of meat that were used, in part, to produce mechanically
tenderized steaks and roasts.48

When we brought this issue to the attention of the FSIS national officials responsible for
designing and implementing the testing program for E. coli, they stated that, given their limited
testing resources, they had not emphasized the testing of tenderized products, as they considered
these products to be of lower risk than bench trim. They stated that the agency has developed a
proposed rule that is currently under review, which would require new labeling for mechanically
tenderized product because industry and consumer groups have realized the potential risks
associated with undercooking these products. FSIS officials noted that they are performing a
non-intact beef risk assessment, which will examine the risk associated with tenderized product.
Further, the agency is planning to survey industry to gather more information on the
establishment practices associated with tenderized product. FSIS officials felt that if a testing
program is needed for mechanically tenderized beef, a testing program that was geared more to
sampling the surface area (a component of the meat) of the product would be more effective than
sampling the entire steak or roast.

Given the fact that there have been recalls and concerns about both tenderized product and
marinated tenderized product, OIG maintains that FSIS should perform a study to determine the
health risk associated with these products and whether a more proactive testing program is
merited.

Recommendation 5
Complete the agency’s non-intact beef risk assessment and the planned industry survey on
industry practices related to tenderized products. Using this information, perform an analysis of
the risk associated with the amount and types (e.g., needle tenderized, marinated) of tenderized
product being produced by industry.

Agency Response
The non-intact beef risk assessment and industry survey on industry practices related to
tenderized products is near completion. The risk assessment includes an analysis of the risk
associated with the amount and types of tenderized product being produced by industry.


46
   Product recall National Steak Processors, Owasso, Oklahoma, case 067-2009.
47
   Product recall Crocetti’s Oakdale Packing, Brockton, Massachusetts, case 057-2009.
48
   Public health alert XL Foods Inc., Alberta, Canada.

                                                                      AUDIT REPORT 24601-0003-31   15
The estimated completion date for this response is April 2013.

OIG Position
We accept management decision for this recommendation.

Recommendation 6
If the agency determines that there is a significant amount of risk associated with the
consumption of mechanically tenderized beef products, then develop a plan with milestones and
reasonable timeframes for sampling and testing the tenderized products or their components.
Seek public input on the plan, consider any comments provided, and conclude whether or not to
implement a new tenderized product sampling program.

Agency Response
The risk assessment developed under Recommendation 5 will be utilized along with other
information to support an agency determination of the risk associated with the consumption of
mechanically tenderized beef products.

If FSIS finds a significant amount of risk associated with the consumption of mechanically
tenderized beef products, FSIS will develop a plan with milestones and reasonable timeframes
for establishing a sampling and testing program for tenderized products or their components.
The implementation plan will include a step to develop and issue a Federal Register Notice to
publicize the sampling program and seek public comment. FSIS will finalize the policy, and
develop and issue a Directive establishing the policy and sampling procedures to be carried out
by field personnel.

The estimated completion date for all parts of this response is March 2014.

OIG Position
We accept management decision for this recommendation.




16     AUDIT REPORT 24601-0003-31
Finding 4: FSIS Needs to Ensure PHIS Contains Accurate Data, so that
Establishments are Correctly Sampling Beef for E. coli Testing
FSIS in-plant inspectors rely on PHIS to generate periodic tasks indicating what type of E. coli
sampling they should be performing to ensure food safety. Those sampling tasks are based on
information contained in the establishment profiles that have been loaded into PHIS. The plant
profile would indicate what sort of meat products are produced at a slaughter or processing plant,
which in turn triggers the corresponding types of sampling requests the inspector should perform.
However, based on our review of 22 of about 1,750 establishments, we determined that FSIS
either had incorrect profile information, or the establishment was incorrectly included or
excluded on various sampling programs for 18 of these establishments. In part, this occurred
because FSIS recently transitioned to PHIS and, when it did, the agency attempted to migrate
data from its old information system. This data migration encountered problems, so the agency
instructed FSIS district personnel to manually enter data into the profiles. OIG notes, however,
that the data may not always have been correct in the older system. Due to this and other data
migration problems, FSIS was not correctly sampling and testing either for ground beef or its
components at these 18 plants. At one plant alone, FSIS did not take E. coli samples because of
a profile error in PHIS data. As a result, FSIS inspectors did not receive tasks directing them to
sample over 50 million pounds of ground beef production over a period of about 5 months.49 At
another plant, FSIS did not sample other raw ground beef components50 for over 4 years, and it
was not until OIG brought the issue to the agency’s attention in May 2012 that the agency began
sampling these components at the plant—over 50 million pounds of product were not tested
under the appropriate E. coli sampling program.51

FSIS inspectors perform various forms of E. coli verification sampling to ensure the validity of
an establishment’s HACCP plan. FSIS uses the establishment’s profile information in PHIS to
generate the agency’s sample requests.52 Inspection personnel are responsible for keeping the
establishment profile up-to-date and accurate.53

In the process of selecting which plants we should visit, we noted that many plants were
producing meat products that indicated they should be included in various E. coli sampling
programs other than finished ground beef. Likewise, plants were sampling bench trim, but they
were not included in the final ground beef testing program. These discrepancies led us to visit
plants, acquire some additional data, and work with FSIS’ data analysis group to confirm that
many of these plants had PHIS profiles that included inaccurate information and were not
prompting agency sampling requests for the products being produced at those plants.



49
   At this establishment, source ground beef materials were from other FSIS inspected facilities and were included in
FSIS E. coli sampling programs.
50
   FSIS Directive 10,010.1, Rev. 3, Chapter I, Section V (f.). Other raw ground beef components may include such
products as cheek meat, head meat, and raw esophagus (weasand).
51
   If these products were ground at an FSIS inspected downstream processor, the ground beef product should have
been included in FSIS’ ground beef E. coli sampling program.
52
   PHIS Directive 5300.1, Section VIII: Establishment Profile (A.).
53
   PHIS Directive 5300.1, Section X: IPP Responsibilities For Performing the Establishment Profile Inspection Task
(A.).

                                                                        AUDIT REPORT 24601-0003-31               17
As we looked at individual plants, we were informed by FSIS plant personnel that the
information in the profiles was incorrect and that the incorrect profile information was
interfering with sampling. Each month, PHIS generates a task that prompts FSIS personnel to
review and update the profile to verify the plant’s product and the volume being produced;
however, we found that updates were not being performed adequately.

In addition, we found that inspectors often are not familiar enough with PHIS to properly update
some important profile information, nor do they know what plant profile information is critical
for determining the establishments’ proper E. coli sampling program eligibility. At three
establishments we visited, we identified problems in the plant profile or problems with the
sampling program at each establishment. The inspectors and one front line supervisor said they
did not know which data fields in the PHIS profile were preventing or causing the
establishment’s FSIS inspector to receive proper or improper sampling requests.

When we brought this issue to the attention of FSIS national officials responsible for the design
of the agency’s E. coli testing system, they stated that they were aware that there were problems
with the accuracy of the PHIS profiles because of data migration failures which required manual
entry by FSIS personnel. They had approached the issue from a nationwide perspective to
monitor the overall level of inspection activity and had identified substantial gaps only during the
implementation of PHIS. We also directed them to an FSIS notice that requires FSIS to select a
sample of establishment profiles to review and ensure PHIS profile data accuracy on a plant-by-
plant basis.54 FSIS officials stated that they have not performed this data analysis of
establishment profiles because they had to adjust the type of data analysis they performed to a
higher level of review, due to the data migration problems. Instead of performing analysis on a
plant-by-plant basis, they would continue monitoring the overall level of inspection activity and
various aspects of PHIS data to identify gaps in the PHIS implementation. FSIS officials did
mention that Enforcement Investigations and Analysis Officers (EIAOs)55 will be conducting
periodic Food Safety Assessments (FSAs)56 of establishments, which will include a review of
their records and documentation.57 They stated that these reviews should correct the problems
with plant profiles.

However, we noted that at 2 of the 22 plants we reviewed, FSAs had been previously performed
and the EIAOs did not note that the plants were not in the correct E. coli sampling programs.
The FSA review guide did not specifically require the reviewer to determine if the FSIS
sampling programs correctly reflected the operations of the establishment. FSIS officials agreed
that these reviews should look more closely at these issues.

To improve its PHIS sample selection during the new system’s implementation, FSIS also used
historical plant sampling data as an input—historical sampling means, simply, that if FSIS has
conducted a certain type of sampling at a plant in the past, it should sample again for that

54
   FSIS Notice 17-11 PHIS Transition (VI).
55
   FSIS Directive 5100.1 Rev 3 Part 1 V.A: EAIOs are trained to assess the design and validity of food safety
systems and to prepare administrative enforcement reports.
56
   FSIS Directive 5100.1 Rev 3 Chapter 1 I (C): FSAs are a review of the establishment’s food safety systems.
Establishments receive FSA reviews once every 4 years.
57
   FSIS Directive 5100.1 Rev 3 Chapter 2 Section II.

18      AUDIT REPORT 24601-0003-31
product. However, FSIS discontinued using historical sampling data for one of its sampling
programs because the agency believed that the plants’ PHIS profiles were complete. As a result,
for at least one plant, this change resulted in the plant no longer receiving the correct sampling
requests. The plant had historically been sampling ground beef weekly, but from April 2012 to
August 2012, the plant stopped receiving requests for ground beef samples. FSIS inspectors at
the plant did not resume sampling until we inquired concerning why they were not sampling
ground beef. This establishment produces about 600,000 pounds of ground beef products daily
for a large national fast food restaurant chain.58 We acknowledge that the source materials used
to produce the ground beef were received from other FSIS inspected facilities and should have
been included in FSIS’s E coli sampling program at the upstream facilities.

At another establishment—one of the top 10 slaughter establishments in the United States—FSIS
did not take E. coli samples for other ground beef components, such as head meat, cheek meat,
and weasand59 meat products. The FSIS inspector did not sample these products because his
understanding was that these products were not being ground at the establishment and therefore
should not be included in the FSIS E. coli sampling program. FSIS did not take these samples
from 2008 until May 2012, when we questioned why FSIS was not sampling other ground beef
components at the plant. Even though an FSA was performed at this establishment, the review
did not identify that the establishment was not in the correct E. coli sampling program. As a
result, over 50 million pounds of other ground beef components were not subject to required
FSIS E. coli sampling at this slaughter establishment.60

OIG concluded that FSIS needs to take steps to ensure the accuracy of establishment profiles in
PHIS. If it does not do so, then inspectors will not be sampling product, as required by FSIS
procedures. We maintain that the agency should make use of its data analysis group to
periodically verify the accuracy of PHIS profiles for individual establishments.

Recommendation 7
Follow up with the field personnel assigned to the 18 plants where OIG noted E. coli sampling
program issues and assure all omissions or errors in PHIS are correct and that these
establishments are eligible for E. coli sampling in all the appropriate sampling programs.

Agency Response
FSIS will follow up with inspection program personnel at the 18 cited establishments to correct
data errors in the PHIS Establishment Profile. The Office of Data Integration and Food
Protection’s Data Analysis and Integration Group will coordinate with the Office of Field
Operations to follow-up in the 18 plants OIG identified with sampling issues to ensure that they
are being sampled appropriately. The Data Analysis and Integration Group, in conjunction with


58
   The establishment does perform E. coli sampling on final ground product every 15 minutes.
59
   Weasand is raw esophagus.
60
   Although FSIS was not testing this product at the slaughter establishment, the ground beef produced at an FSIS
inspected facility that included this source material would have been eligible for sampling under FSIS’ ground beef
E. coli sampling program prior to entering commerce.

                                                                        AUDIT REPORT 24601-0003-31              19
the Office of Field Operations, will conduct quarterly reviews of those 18 plants to ensure that
they remain correctly sampled.

The estimated completion date for all parts of this response is September 2013.

OIG Position
We accept management decision for this recommendation.

Recommendation 8
Develop and implement a plan for FSIS to periodically analyze its pathogen sampling databases
for anomalies related to which establishments are eligible for the various pathogen sampling
programs. This periodic analysis should include non-profile data, such as historical sampling
data. The plan should include directions on how to notify field personnel, how to investigate the
concern, and how to properly resolve any questionable database issues that are found related to
an establishment’s eligibility for a pathogen sampling program.

Agency Response
The Office of Data Integration and Food Protection’s Data Analysis and Integration Group will
compare historic E. coli, Listeria monocytogenes, Salmonella, and residue sampling at the single
establishment level as reported in PBIS with current sampling as reported in PHIS. Through that
analysis, the Office of Data Integration and Food Protection’s will identify discrepancies
between historical and current sampling, and work with the Office of Field Operations to
follow-up on those discrepancies that warrant further investigation. Procedures will be developed
to perform the analysis, notify field personnel, investigate concerns, and resolve issues identified
during the analysis.

Going forward, the Office of Data Integration and Food Protection will conduct an annual review
of changes to the sampled population of establishments, including a review of discrepancies with
the Office of Field Operations. Similar procedures will be developed to notify field personnel,
investigate concerns, and resolve issues identified during the analysis.

The estimated completion date for this response is September 2013.

OIG Position
We accept management decision for this recommendation.

Recommendation 9
Revise the procedures for performing FSAs to ensure that EIAOs verify that the establishment
being reviewed is included in all the correct FSIS pathogen sampling programs.


20     AUDIT REPORT 24601-0003-31
Agency Response
A report will be developed to list the sampling programs for which the establishment is eligible
based on its production. When EIAOs perform FSAs, they can review the establishment profile
at the establishment to verify its accuracy and ensure that it is included in the appropriate
sampling frames for the products it produces. FSIS will update Directive 5100.1, Enforcement,
Investigations, and Analysis Officer (EIAO) Comprehensive Food Safety Assessment
Methodology, to reflect the revised procedures.

The estimated completion date for all parts of this response is March 2014.

OIG Position
We accept management decision for this recommendation.

Recommendation 10
Issue additional guidance to FSIS personnel regarding common profile entry errors that are
causing establishments to be placed in inappropriate sampling programs.

Agency Response
FSIS will ascertain the most common profile errors and revise FSIS Directive 5300.1, Managing
the Establishment Profile in the Public Health Information System (PHIS), to add a list of most
common errors and reiterate that establishment profile review and update task should be
performed monthly.

The estimated completion date for this response is December 2013.

OIG Position
We accept management decision for this recommendation.




                                                            AUDIT REPORT 24601-0003-31        21
Finding 5: FSIS Needs to Ensure Processors Maintain Sufficient Records for
Trace Back and Recall Purposes
When beef processing establishments grind trim and other components, it is standard industry
practice to maintain “grinding logs,” which can be used to trace back source material in case of a
recall. Of the 11 Federal processing establishments we reviewed, we found that
3 establishments’ grinding logs did not provide the necessary source information to enable FSIS
to trace the material back to the originating slaughter establishment. This has occurred because,
while FSIS has provided establishments with guidance concerning the need for grinding logs and
the specific information that should be included, the agency has been reluctant to require that
detailed grinding logs be maintained. While most large establishments maintain very detailed
grinding logs, we found that other, smaller establishments are reluctant to do so, perceiving the
logs as burdensome. Without the necessary source information from the grinding logs, the
processing establishments may not be able to accurately identify the source of E. coli
contamination. If the source of contamination cannot be properly identified, supplying
establishments will not be able to properly address the issues concerning how the source product
was contaminated and correct the problem upstream.

FSIS requires food handling firms, including establishments that grind boxed beef material, to
keep and make available full and correct business records to FSIS.61 Grinding logs are not,
strictly speaking, required; however, they are suggested, and they can be crucially important in
case of a recall.

Of the 11 Federally inspected processing establishments we visited, we found that all the larger
establishments prepared detailed grinding logs that captured a great deal of relevant information.
However, 3 of the 11 establishments did not maintain grinding logs with sufficient information
to identify contaminated source material in the event of an E. coli-related recall. When we spoke
to the FSIS inspectors about the inadequacy of the grinding logs, they stated that they knew the
logs would not suffice to trace back source material in case of a recall. On the other hand, plant
managers varied in their attitudes toward the importance of maintaining detailed grinding logs.
One manager stated that he would quit grinding, rather than maintain adequate grinding logs;
another agreed that the establishment could improve its practices. All parties noted that detailed
grinding logs are currently not required by FSIS.

When we spoke to FSIS national officials about this problem, they agreed that adequate grinding
logs and recall plans were necessary for trace back in case of a recall. First, agency officials
noted that FSIS has issued compliance guidelines to industry for maintaining adequate grinding
logs and the agency is in the process of finalizing a rule which would establish requirements for
maintaining these records. In addition, they stated that the agency has issued a Federal Register
notice, requiring all Federally inspected establishments to develop written recall plans.
According to the new requirement, large establishments had until November 5, 2012, and small
and very small establishments have until May 8, 2013, to develop their recall plans.62 They
noted that, in order for a recall plan to be effective, the establishment would have to be able to

61
     21 U.S.C. § 642: Recordkeeping Requirements (a).
62
     Federal Register/Vol. 77, No. 89, Tuesday, May 8, 2012, Rules and Regulations.

22         AUDIT REPORT 24601-0003-31
identify source material—hence the need for detailed grinding logs. FSIS officials stated that
they would emphasize the importance of adequate grinding logs as the inspection staff reviewed
the new recall plans.

OIG concludes that adequate grinding logs are essential to conducting effective recalls. As FSIS
moves to require establishments to prepare and maintain recall plans, the agency should ensure
that these logs are maintained and are of sufficient detail to facilitate a recall at any Federally
inspected establishment.

Recommendation 11
Finalize and publish the agency’s final rule, establishing requirements for industry to maintain
grinding logs.

Agency Response
FSIS intends to propose to amend its recordkeeping regulations to address this issue. FSIS must
follow established rulemaking procedures which will likely take more than one year to
implement. FSIS is proposing to amend its recordkeeping regulations to specify that all official
establishments and retail stores that grind raw beef products for sale in commerce must keep
records that disclose the identity and contact information of the supplier of all source materials
that they use in the preparation of each lot of raw ground beef and identify the names of those
supplied source materials, including any beef components and any carryover from one
production lot to the next. The records would also be required to document the amount of the
beef component used in each lot (in lbs), the date and time each lot of raw ground beef product
was produced, and the date and time when grinding equipment and other related food-contact
surfaces were cleaned and sanitized. Official establishments and retail stores would also have to
comply with the proposed recordkeeping requirements with respect to raw beef products that are
ground at an individual customer’s request. FSIS must assess the response to the proposed rule
and make a decision whether to finalize the rule.

The estimated completion date for all parts of this response is May 2013.

OIG Position
We accept management decision for this recommendation.

Recommendation 12
When the rule on grinding logs has been finalized, develop procedures for FSIS field personnel
to evaluate whether establishments are maintaining adequate grinding logs that can be used to
trace back implicated product to the source supplier in the event of a recall, with examples and
criteria to assist inspection personnel in reviewing grinding logs to determine if the logs are
suitable. Those procedures should also include specific actions to take when an establishment’s
grinding logs are found to be inadequate.

                                                             AUDIT REPORT 24601-0003-31         23
Agency Response
Should the proposed rule become final, FSIS will develop procedures for FSIS field personnel to
verify the rule on grinding logs; however, this process may take more than one year. FSIS is
currently in the process of amending its recordkeeping regulations to address this issue. Should
the rule become final, FSIS will develop and issue a Directive providing instructions to
inspection program personnel to verify the rule on grinding logs. The Directive will instruct
inspection program personnel to evaluate whether establishments are maintaining adequate
grinding logs that can be used to trace back implicated product to the source supplier in the event
that adulterated product has been produced, and will include examples and criteria to assist
inspection personnel in reviewing grinding logs to determine if the logs are suitable. Those
procedures will also include specific actions to take when an establishment’s grinding logs are
found to be in adequate.

The estimated completion date for this response is April 2014.

OIG Position
We accept management decision for this recommendation.




24     AUDIT REPORT 24601-0003-31
Scope and Methodology
While conducting fieldwork for Audit 24601-0001-31, Food Safety and Inspection Service
N-60 Testing Protocol on Beef Trim for Escherichia coli O157:H7—Phase 2, the audit team
became aware of the potential for downstream processors to grind untested boxed beef products.
Due to time and travel constraints, OIG chose to issue the report for Audit 24601-0001-31 and
initiate a separate audit to examine the identified potential food safety issues.

To meet our audit objectives, we interviewed personnel from multiple offices within the FSIS
national office, visited processing facilities and a slaughter establishment, and interviewed a
representative of a national trade group, which represents small and very small slaughter and
processing facilities. We also analyzed data we received from FSIS. Among those visited and
interviewed were:

       ·   FSIS National Office Representatives: We discussed E. coli testing programs,
           sampling process, and testing procedures with personnel from the offices listed
           below. The audit team communicated with these officials on numerous occasions by
           interview, phone, and e-mail.

           §   Office of Field Operations: We conducted interviews with senior-level officials
               who manage national inspection activities.

           §   Office of Policy and Program Development: We conducted interviews with
               senior-level officials who provide leadership in the identification of policy needs,
               develop policy solutions to address the intent and application of verification and
               enforcement policy in plant activities, and provide direct technical support to
               FSIS field office personnel.

           §   Office of the Data Integrity and Analysis Group: We conducted interviews
               with senior-level officials who coordinate FSIS’ data collection, analysis, and
               integration activities across all program areas. This group is responsible for
               evaluating individual FSIS data streams, ensuring data analyses are consistent and
               of high quality, and conducting data analyses for the agency’s decision makers.

       ·   Processors’ Representative: We conducted an interview with a representative of the
           American Association of Meat Processors, an industry trade group. The interview
           included gaining insight into the group’s opinions and practices regarding E. coli
           testing at the processor level, as well as their concerns regarding traceability and
           labeling.

       ·   Processing Facilities: We conducted field work at 11 processing facilities in five
           States to gain an understanding of the testing of incoming boxed beef used for
           grinding, bench trim derived from the incoming boxed beef, and final ground beef
           products. We judgmentally chose these processing plants, based on travel
           considerations and either our data analysis or recommendations from FSIS personnel.
           At each establishment, we conducted interviews with both FSIS personnel and plant

                                                              AUDIT REPORT 24601-0003-31        25
           management to determine the extent of FSIS and establishment testing, as well as to
           identify the types of incoming products that were ground and the end use of the
           ground product. The facilities we visited were located in Illinois, Iowa, Kansas,
           Missouri, and Nebraska.

       ·   Slaughter Establishment: We conducted fieldwork at one Nebraska slaughter
           establishment. We visited the establishment to trace source materials that we
           identified at downstream processors, back upstream. By doing so, we verified aspects
           of E. coli testing, interventions, and the traceability of the source product to the
           originating establishment.

       ·   Online Articles and Blogs: We reviewed sources, such as foodsafetynews.com and
           meatingplace.com, to stay current on relevant industry issues.

       ·   FSIS Electronic Data: We received electronic data from FSIS related to agency
           E. coli O157:H7 sampling. We examined this electronic sampling data for obvious
           anomalies and, for a limited number of these anomalies, we validated the accuracy of
           the agency electronic data. We attempted to confirm selected agency electronic
           sampling data through plant documents, internet websites, FSIS documents,
           interviews with plant management, and interviews with FSIS field and national office
           officials. We verified only a small portion of the electronic sampling data that we
           obtained from FSIS’ electronic information systems; therefore, we make no
           representation regarding the adequacy of the agency’s computer systems.

Our audit fieldwork was conducted from March 2012 to September 2012. During our audit
work, we focused on the testing of boxed beef products purchased and processed during the
period January 1, 2010 through March 31, 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions,
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




26     AUDIT REPORT 24601-0003-31
Abbreviations


E. coli ..........................   Escherichia coli
EIAO ...........................     Enforcement Investigations and Analysis Officers
FMIA...........................      Federal Meat Inspection Act
FSA .............................    Food Safety Assessment
FSIS ............................    Food Safety and Inspection Service
HACCP .......................        Hazard Analysis and Critical Control Point
OIG .............................    Office of Inspector General
PHIS ............................    Public Health Information System
USDA..........................       U. S. Department of Agriculture




                                                                  AUDIT REPORT 24601-0003-31   27
28   AUDIT REPORT 24601-0003-31
Agency’s Response




                  USDA’S
                   FSIS’
         RESPONSE TO AUDIT REPORT




                         AUDIT REPORT 24601-0003-31   29
      United States        Food Safety           Washington, D.C.
      Department of        and Inspection        20250
      Agriculture          Service




TO:              Gil H. Harden
                 Assistant Inspector General
                  for Audit
                 Office of Inspector General

FROM:            Alfred V. Almanza /s/ March 12, 2013
                 Administrator
                 Food Safety and Inspection Service

SUBJECT:         Office of Inspector General (OIG) Official Draft Report – Food Safety and
                 Inspection Service E. coli Testing of Boxed Beef (Audit 24601-0003-31)


We appreciate the opportunity to review and comment on this official draft report. The Food
Safety and Inspection Service (FSIS) reviewed the official draft report and has responded to each
of the recommendations.

Responses to Recommendations

Recommendation 1:
Reevaluate procedures for sampling boxed beef product as bench trim and issue clarification to
FSIS’ inspectors on the agency’s requirements. Also, consider the risk associated with a
downstream processor’s own verification testing (or lack of testing) when evaluating the
frequency of sampling.

FSIS Response:
FSIS agrees that boxed beef product designated as intended for grinding at a “downstream”
processor should be eligible for sampling and testing as “bench trim” at the grinding
establishment by FSIS. FSIS has issued guidance to industry recommending that establishments
conduct such verification activities to demonstrate the on-going effectiveness of their food safety
systems, including prerequisite programs. The Agency will clarify its instructions to Agency
inspection personnel in FSIS Directive 10,010.1, Verification Activities for Escherichia coli
O157:H7 in Raw Beef Products, and in related AskFSIS questions that FSIS policy is that “bench
trim” derived from boxed beef sub-primals at “downstream” grinders is subject to testing under
the MT55 testing program. FSIS will clarify that whenever a whole primal or sub-primal cut is
received at a non-slaughter establishment and is intended for grinding (not just the trimmings
from these cuts), the whole primal or sub-primal cut is considered to be bench trim and subject to
being sampled.

Using the results of the analysis outlined under Recommendation 3, FSIS will consider adjusting
the frequency of testing when “downstream” grinders maintain their own testing programs.


FSIS Form 2630-9 (6/86)                  EQUAL OPPORTUNITY IN EMPLOYMENT AND SERVICES
                                                                                          2


Estimated Completion Date:
Revised FSIS Directive 10,010.1, December 2013. Related AskFSIS questions, January 2014.
Sampling frequency updates, March 2014.

Recommendation 2:
Prepare a plan with reasonable timeframes to evaluate and implement whether the Public Health
Inspection System (PHIS) or another system should be modified or developed to capture
additional information regarding the type of incoming product (i.e., boxes of whole muscles beef
cuts) that is being ground by downstream processing establishments in order to improve FSIS’
ability to assign the appropriate E. coli sampling program requests.

FSIS Response:
FSIS will perform a survey using a new functionality in PHIS to determine which downstream
(non-slaughter) establishments receive whole primal or sub-primal cuts and then grind them.
FSIS will then update these establishments’ profiles in PHIS to reflect this fact. This information
will help identify those establishments where whole primal or sub-primal cuts are eligible for
sampling and testing under the MT55 testing program. A mechanism to capture this information
in PHIS will soon be operational. PHIS will have a survey functionality that will be operational
in June 2013, which will allow IPPS to input answers to survey questions. FSIS will use the new
survey function to collect information on which downstream establishments grind whole primal
or sub-primal cuts, and then PHIS establishment profiles will be updated accordingly.

Estimated Completion Date:
Implementation of PHIS survey functionality, June 2013. Conduct survey and update plant
profiles in PHIS, December 2013.

Recommendation 3:
Initiate an assessment, which provides and estimate of the risk associated with the potential
volume of untested boxed beef and store-generated bench trim derived from its own operations
that is being ground in retail exempt establishments. Consider using a survey to gather the
information on exempt retailers’ practices.

FSIS Response:
FSIS will develop an assessment that will compare the level of STEC O157 contamination in
ground beef produced from boxed beef to the level of STEC O157 in ground beef produced from
trim (i.e. trimmings produced at slaughter/processing establishments). This assessment will use
information from previously published risk assessments to determine the beginning levels of
contamination in the two different types of product.

The levels of contamination in ground product can be extended to predictions of risk per serving
if storage, preparation, consumption, and other factors are assumed to be identical for both
ground beef from boxed beef and ground beef from trim. At this time there is no evidence to
indicate the ground beef produced from boxed beef is stored, prepared, or consumed differently
than ground beef produced from trim.
                                                                                          3




Predictions of numbers of human illnesses due to STEC O157 contamination in ground beef
produced from boxed beef cannot be developed at this time. Before such illness estimates can be
developed, information on the volume and distribution of ground beef produced from boxed beef
is needed.

FSIS will also evaluate the likelihood of detecting positive lots of product (boxed beef, bench
trim, or ground beef) under various testing schemes including processor and/or FSIS verification
testing and end product testing. Such an assessment could include an estimate of any predicted
reductions in risk of illness associated with product testing. Again, such an assessment would
first require data regarding retail practices on volume and distribution of ground beef from boxed
beef.

FSIS will gather information on exempt retailers’ practices by means that conform to established
agency protocol for risk assessments which may be subject to peer review.

Estimated Completion Date:
Risk assessment complete December 2013.

Recommendation 4:
If the agency determines that there is a significant amount of risk associated with grinding of
boxed beef and store-generated bench trim in retail establishments, develop a plan with
milestones and reasonable timeframes to implement a testing program to sample and test bench
trimmings that are ground in retail establishments, including reallocating their limited testing
resources to include beef trim vs. final product at retail exempt establishments. Seek public input
on the plan, consider any comments provided, and conclude whether or not to implement a new
bench trim sampling program in retail establishments.

FSIS Response:
If FSIS determines that there is a significant amount of risk associated with grinding of boxed
beef and store-generated bench trim in retail establishments as a result of the assessment
described in response to recommendation 3, FSIS will develop a plan with milestones and
reasonable timeframes to implement a testing program to sample and test bench trimmings that
are ground in retail establishments. In preparing the plan, FSIS will make a determination as to
allocation of testing resources between beef trim and final product at retail exempt
establishments.

Estimated Completion Date:
Development of plan March 2014.

Recommendation 5:
Complete the agency’s non-intact beef risk assessment and the planned industry survey on
industry practices related to tenderized products. Using this information, perform an analysis of
the risk associated with the amount and types (needle tenderized, marinated, etc.) of tenderized
product being produced by industry.
                                                                                         4




FSIS Response:
The non-intact beef risk assessment and industry survey on industry practices related to
tenderized products is near completion. The risk assessment includes an analysis of the risk
associated with the amount and types of tenderized product being produced by industry.

Estimated Completion Date:
Publication of non-intact beef risk assessment, industry survey on tenderized products, and
analysis of risk of tenderized product April 2013.

Recommendation 6:
If the agency determines that there is a significant amount of risk associated with the
consumption of mechanically tenderized beef products, then develop a plan with milestones and
reasonable timeframes for sampling and testing the tenderized products or their components.
Seek public input on the plan, consider any comments provided, and concluded whether or not to
implement a new tenderized product sampling program.

FSIS Response:
The risk assessment developed under Recommendation 5 will be utilized along with other
information to support an agency determination of the risk associated with the consumption of
mechanically tenderized beef products.

If FSIS finds a significant amount of risk associated with the consumption of mechanically
tenderized beef products, FSIS will develop a plan with milestones and reasonable timeframes
for establishing a sampling and testing program for tenderized products or their components.
The implementation plan will include a step to develop and issue a Federal Register Notice to
publicize the sampling program and seek public comment. FSIS will finalize the policy, and
develop and issue a Directive establishing the policy and sampling procedures to be carried out
by field personnel.

Estimated Completion Date:
Risk assessment complete April 2013. If needed, development of implementation plan for a
testing program March 2014.

Recommendation 7:
Follow up with the field personnel assigned to the 18 plants where OIG noted E. coli sampling
program issues and assure all omissions or errors in PHIS are correct and that these
establishments are eligible for E. coli sampling in al the appropriate sampling programs.


FSIS Response:
FSIS will follow-up with IPP at the 18 cited establishments to correct data errors in the PHIS
Establishment Profile. The Office of Data Integration and Food Protection’s (ODIFP’s) Data
Analysis and Integration Group (DAIG) will coordinate with the Office of Field Operations
(OFO) to follow-up in the 18 plants OIG identified with sampling issues to ensure that they are
                                                                                           5


being sampled appropriately. DAIG, in conjunction with OFO, will conduct quarterly reviews of
those 18 plants to ensure that they remain correctly sampled.

Estimated Completion Date:
Follow-up at 18 establishments completed June 2013. Quarterly reviews of 18 plants, starting
September 2013, for one year.

Recommendation 8:
Develop and implement a plan for FSIS to periodically analyze its pathogen sampling data bases
for anomalies related to which establishments are eligible for the various pathogen sampling
programs. This periodic analysis should include non-profile data, such as historical sampling
data. The plan should include directions for how field personnel will be notified, how to
investigate the concern, and how to properly resolve any questionable database issues that are
found related to an establishment’s eligibility for a pathogen sampling program.

FSIS Response:
The Office of Data Integration and Food Protection’s (ODIFP’s) Data Analysis and Integration
Group (DAIG) will compare historic E. coli, Listeria monocytogenes, Salmonella, and residue
sampling at the single establishment level as reported in PBIS with current sampling as reported
in PHIS. Through that analysis, ODIFP will identify discrepancies between historical and current
sampling, and work with the Office of Field Operations (OFO) to follow-up on those
discrepancies that warrant further investigation. Procedures will be developed to perform the
analysis, notify field personnel, investigate concerns, and resolve issues identified during the
analysis.

Going forward, ODIFP will conduct an annual review of changes to the sampled population of
establishments, including a review of discrepancies with OFO. Similar procedures will be
developed to notify field personnel, investigate concerns, and resolve issues identified during the
analysis.

Estimated Completion Date:
Initial analysis and procedures September 2013.

Recommendation 9:
Revise the procedures for performing FSAs to ensure that EIAOs verify that the establishment
being reviewed is included in all the correct FSIS pathogen sampling programs.

FSIS Response:
A report will be developed to list the sampling programs for which the establishment is eligible
based on its production. When EIAOs perform FSAs, they can review the establishment profile
at the establishment to verify its accuracy and ensure that it is included in the appropriate
sampling frames for the products it produces. FSIS will update Directive 5100.1, Enforcement,
Investigations, and Analysis Officer (EIAO) Comprehensive Food Safety Assessment
Methodology, to reflect the revised procedures.
                                                                                          6


Estimated Completion Date:
Develop sampling report July 2013. Update Directive 5100.1, March 2014.

Recommendation 10:
Issue additional guidance to FSIS personnel regarding common profile entry errors that are
causing establishments to be placed in inappropriate sampling programs.

FSIS Response:
FSIS will ascertain the most common profile errors and revise FSIS Directive 5300.1, Managing
the Establishment Profile in the Public Health Information System (PHIS), to add a list of most
common errors, and reiterate that establishment profile review and update task should be
performed monthly.

Estimated Completion Date:
Revise Directive 5300.1, December 2013.

Recommendation 11:
Finalize and publish the agency’s final rule, establishing requirements for industry to maintain
grinding logs.

FSIS Response:
FSIS intends to propose to amend its recordkeeping regulations to address this issue. FSIS must
follow established rulemaking procedures which will likely take more than one year to
implement. FSIS is proposing to amend its recordkeeping regulations to specify that all official
establishments and retail stores that grind raw beef products for sale in commerce must keep
records that disclose the identity and contact information of the supplier of all source materials
that they use in the preparation of each lot of raw ground beef and identify the names of those
supplied source materials, including any beef components and any carryover from one production
lot to the next. The records would also be required to document the amount of the beef
component used in each lot (in lbs), the date and time each lot of raw ground beef product was
produced, and the date and time when grinding equipment and other related food-contact surfaces
were cleaned and sanitized. Official establishments and retail stores would also have to comply
with the proposed recordkeeping requirements with respect to raw beef products that are ground
at an individual customer’s request. FSIS must assess the response to the proposed rule and
make a decision whether to finalize the rule.

Estimated Completion Date:
Proposed rule on Grinding logs, May 2013.

Recommendation 12:
When the rule on grinding logs has been finalized, develop procedures for FSIS field personnel
to evaluate whether establishments are maintaining adequate grinding logs that can be used to
trace back implicated product to the source supplier in the event of a recall, with examples and
criteria to assist inspection personnel in reviewing grinding logs to determine if the logs are
                                                                                        7


suitable. Those procedures should also include specific actions to take when an establishment’s
grinding logs are found to be in adequate.

FSIS Response:
Should the proposed rule become final, FSIS will develop procedures for FSIS field personnel to
verify the rule on grinding logs, however, this process may take more than one year. FSIS is
currently in the process of amending its recordkeeping regulations to address this issue. Should
the rule become final, FSIS will develop and issue a Directive providing instructions to IPP to
verify the rule on grinding logs. The Directive will instruct IPP to evaluate whether
establishments are maintaining adequate grinding logs that can be used to trace back implicated
product to the source supplier in the event that adulterated product has been produced, and will
include examples and criteria to assist inspection personnel in reviewing grinding logs to
determine if the logs are suitable. Those procedures will also include specific actions to take
when an establishment’s grinding logs are found to be in adequate.

Estimated Completion Date:
Develop procedures to verify rule on grinding logs, should the rule become final, April 2014.
Informational copies of this report have been distributed to:


Government Accountability Office

Office of Management and Budget

Office of the Chief Financial Officer
 Attn: Director, Planning and Accountability Division
 To learn more about OIG, visit our website at
 www.usda.gov/oig/index.htm
 How To Report Suspected Wrongdoing in USDA Programs

 Fraud, Waste and Abuse
 e-mail: USDA.HOTLINE@oig.usda.gov
 phone: 800-424-9121
 fax: 202-690-2474

 Bribes or Gratuities
 202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).
To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the Assistant
Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250-9410, or call
toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English Federal-relay) or
(800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
